           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        UNAUTHORIZED WORK
      SOCIAL SECURITY NUMBERS
   AT THE DEPARTMENT OF DEFENSE

   September 2005     A-03-05-25127




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   September 20, 2005                                                      Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Unauthorized Work Social Security Numbers at the Department of Defense
        (A-03-05-25127)


        OBJECTIVE
        Our objectives were to determine whether: (1) employees of the Department of
        Defense (DOD) reported earnings under nonwork Social Security numbers (SSN)
        during Tax Years (TY) 1999 to 2003 to the Social Security Administration (SSA) and
        (2) SSA has programs to assist DOD in identifying those employees.

        BACKGROUND
        SSA assigns nonwork SSNs to noncitizens lacking Department of Homeland Security
        (DHS) work-authorization and who have valid nonwork reasons for the SSNs.1 In
        recent years, SSA has strictly limited the assignment of these numbers.2 Despite the
        fact that such SSNs are not to be used for work purposes, some noncitizens continue to
        work with these numbers and SSA posts the earnings reported under these nonwork
        SSNs.3 Furthermore, SSA annually sends DHS an electronic data file, called the
        Nonwork Alien (NWALIEN) file, providing information on noncitizens who have earnings



        1
          For example, a nonwork SSN can still be issued to an individual if he/she is entitled to a federally-
        financed benefit requiring an SSN, or is legally present in the United States and entitled to a State or local
        public assistance benefit, which requires an SSN.
        2
          SSA has placed greater restrictions on the issuance of nonwork SSNs to help prevent unauthorized
        employment. For example, SSA no longer issues nonwork SSNs for the purpose of getting a driver’s
        license.
        3
         Individuals can use the earnings under nonwork SSNs to become eligible for SSA benefits. See SSA
        Office of the Inspector General (OIG) report, Congressional Response Report: Social Security
        Administration Benefits Related to Unauthorized Work (A-03-03-23053), March 2003. Congress placed
        greater restrictions on benefits related to nonwork SSNs issued after January 1, 2004. See section 211
        of the Social Security Protection Act of 2004, Pub. L. No. 108-203.
Page 2 - The Commissioner

recorded under SSNs assigned for nonwork purposes.4 This file is sent 6 to 18 months
after the earnings occur.

DOD’s primary mission is to protect and advance the security and national interests of
the United States, to deter aggressors and, if deterrence fails, to defeat any adversary.5
In addition, DOD performs critical humanitarian, peacekeeping, law enforcement, and
disaster assistance missions, all of which are important to protecting the national
security of the United States.6 To accomplish its mission, DOD employs individuals
having public responsibilities and positions of trust. As of Fiscal Year 2003, DOD
employed 1.4 million men and women in active duty, another 1.2 million in the reserve
and guard components, and approximately 680,000 civilians. According to a DOD-
contracted study, approximately 35,000 noncitizens are serving in the active military,
with an additional 12,000 serving in the Guard and Reserve.7 See Appendix B for
information on how qualified military personnel can become U.S. citizens through an
expedited process.

We reviewed the NWALIEN files using the 36 Employer Identification Numbers (EIN)
used by the DOD components during TYs 1999 to 2003 to determine (1) the number of
Wage and Tax Statements (Form W-2) submitted with a nonwork SSN and the
associated wages in DOD’s payroll records for this period, (2) whether the noncitizens
reported a change in their work status to the Agency during or after their DOD
employment, and (3) what SSA programs may be available to assist DOD in identifying
employees who are working under nonwork SSNs. We provide a full description of our
scope and methodology in Appendix C.

RESULTS OF REVIEW

For TYs 1999 to 2003, we found that 5,192 DOD employees were working under SSNs
that were originally issued as nonwork SSNs. For these 5,192 employees, DOD
components submitted 19,777 W-2s totaling approximately $573 million in wages.8
Approximately 69 percent of these DOD employees were born in 10 foreign countries –
the top 3 countries being the Philippines, Taiwan, and China. SSA provided the names
of these employees to DHS as part of the NWALIEN file because their wages were

4
 Section 414 of the Illegal Immigration Reform and Immigrant Responsibility Act of 1996
(Pub. L. No. 104-208).
5
  For the purpose of our review, the DOD components consist of the Army, Navy, Marine Corps,
Air Force and DOD agencies (i.e. Defense Finance and Accounting Service (DFAS)). We also included
the U.S. Coast Guard because it is a special component of the Navy in wartime; otherwise, it is a bureau
under the DHS.
6
 DoD Performance and Accountability Report, Management Discussion and Analysis, DOD,
Fiscal Year 2003.

7
    Non-citizens in Today’s Military, CNA Corporation, CRM D0011092.A2/Final, April 2005.
8
    DOD “wages” in this report reflect total compensation, which include wages, tips, etc.
Page 3 - The Commissioner

reported with SSNs that were assigned to noncitizens for nonwork purposes. It is
possible that many of these employees were authorized to work in the U.S. economy
because DHS does not routinely inform SSA when it changes a person’s employment
status from unauthorized to authorized. Unless the person informs SSA directly of such
a change, SSA’s records will continue to show the person as not authorized for
employment and input his or her earnings on the NWALIEN file. DHS has also placed
additional requirements on employers to verify the work-authorization of new
employees, allowing employees to prove their legal right to work in the United States
regardless of the type of SSN issued by SSA. DOD has agreements with SSA and
DHS to verify some DOD employees. Further, SSA and DHS have a voluntary program
in place called the Basic Pilot to assist employers in verifying the SSN and work-
authorization of employees. This program was designed to assist employers in verifying
employment eligibility of newly hired employees. While the Army and Coast Guard are
registered users of the Basic Pilot, SSA staff told us these two components have not
verified any employees through the program. Furthermore, we did not find evidence
that the remaining DOD components were even registered users.

EMPLOYEES WORKING UNDER NONWORK SSNs

For TYs 1999 to 2003, we found that 5,192 DOD employees were working under SSNs
that were originally issued as nonwork SSNs. For these 5,192 employees, DOD
components submitted 19,777 W-2s totaling approximately $573 million in wages. The
average annual earnings was about $28,975 and the median was $25,894 (see
Appendix D for more on the wage distribution). Of the 6 components, the Navy had the
highest concentration of wage items reported under nonwork SSNs, totaling about
46 percent of all DOD wage items in the NWALIEN file (see Table 1).

We analyzed SSA’s Numident9 records for the 5,192 employees with nonwork SSNs to
determine if they reported a work-authorization change to SSA after their earnings were
reported to the NWALIEN file.10 We found:

•     For 4,224 (81 percent) employees, SSA had not issued them a work-authorized SSN
      at the time of the review.11 Unless these individuals informed SSA directly of their
      status change, SSA’s enumeration records will continue to show them as not
      authorized for employment.




9
 The Numident is a record of identifying information (such as name, date of birth, date of death, mother’s
maiden name, etc.) provided by the applicant on his or her Application for a Social Security Card
(SS-5 Form) for an original SSN and subsequent applications for replacement SSN cards.
10
     We did not verify the employment authorization status recorded in SSA’s records with DHS.
11
     Currently, 20 of the 4,224 workers are now deceased on SSA’s records.
Page 4 - The Commissioner

•    For 968 (19 percent) employees, they were subsequently issued a work-authorized
     SSN.12

                        Table 1: Department of Defense Employees
                        with Nonwork SSNs (Tax Years 1999-2003)

   DOD                         Wage       Percent of         Wages
Components        Earners      Items      Wage Items        Reported       Average      Median
Navy                2,179      9,101          46.0%       $241,943,345       $26,584     $26,234
DFAS                1,641      5,292          26.8%       $248,053,173       $46,873     $48,220
Army                  909      3,467          17.5%         $48,319,583      $13,937         $7,951
Air Force             332      1,190           6.0%         $22,653,515      $19,037     $15,145
Marines               207        650           3.3%         $10,579,097      $16,276     $13,615
Coast Guard            22         77           0.4%          $1,499,186      $19,470     $16,698
Total:              5,290     19,777          100%        $573,047,899       $28,975     $25,894
Note: The 5,290 figure represents 5,192 distinct employees as some individuals worked for multiple DOD
components during TYs 1999–2003.

Characteristics of Employees Using Nonwork SSNs

We were interested in the characteristics of the 5,192 employees working under
nonwork SSNs. Therefore, we reviewed the Numident and Master Earnings File
(MEF)13 records for 125 randomly selected DOD employees and found:14

•    The employees were originally enumerated with a nonwork SSN between 1974 and
     2002.15
•    Twenty-one of the employees’ work-authorized status changed from unauthorized to
     authorized. The card legend for the remaining 104 employees still appears as “NOT
     VALID FOR EMPLOYMENT.”
•    On average the employees were employed by DOD for about 12 years, with the
     longest being 27 years.16

12
  When an individual becomes authorized to work, SSA does not assign a new SSN, but rather issues a
new card with the appropriate legend.
13
  The MEF contains all earnings data reported by employers and self-employed individuals. The data is
used to calculate the Social Security benefits due an individual with an earnings record.
14
  The work histories for the 125 sample employees may be understated in our review because DFAS did
not begin reporting wages until 1991, the year it was established. Prior to 1991, some of the military
services may have reported their employees’ wages using EINs that are no longer active.
15
  In March 1974, SSA first published regulations authorizing the issuance of nonwork SSNs.
See 20 Code of Federal Regulations § 422.104(b) and (c).
16
  For those 36 EINs we could locate in SSA’s MEF, TYs 1974 and 1975 were not included in the
employment history because the details for the 2 years were not available.
Page 5 - The Commissioner

•                       Approximately 76 percent of the employees were still employed by DOD in TY 2004.

TOP TEN COUNTRIES WITH UNAUTHORIZED WORKERS

We found that 3,598 (69 percent) of the 5,192 DOD employees were born in 10 different
foreign countries—the Philippines, Taiwan, China, India, Iran, South Korea, Mexico,
Nigeria, Canada, and the United Kingdom17 (see Figure 1). For these employees, DOD
reported approximately 13,988 wage items during the 5-year period.18 The remaining
1,594 employees (31 percent) were born in 184 other countries/regions and represent
5,789 wage items.19

                                                 Figure 1: Top Ten Countries of Birth for DOD
                                                Employees With Earnings Under Nonwork SSNs
                             3,000

                             2,500     2385


                             2,000
     Number of Individuals




                             1,500

                             1,000

                              500
                                                 203      179     146       139       136     130       94       96        90
                                0
                                     Philippines Taiwan   China   India     Iran     South   Mexico   Nigeria   Canada    United
                                                                                     Korea                               Kingdom
                                                                     Countries of Birth

Note: This figure shows information related to the 3,598 individuals born overseas. However, we discuss
3,661 employees in Appendix E of this report since individuals worked for multiple DOD components
during TYs 1999–2003.

WORK STATUS AND THE NONWORK SSN

SSA will issue work-authorized SSNs to noncitizens who were originally issued nonwork
SSNs when the Agency learns DHS has changed their work status.20 However, SSA


17
     The United Kingdom includes England, Northern Ireland, Scotland, and Wales.
18
   A majority of the 13,988 unauthorized wage items were from the Philippines—9,936 wage items
totaling about $269 million in wages (see Appendix E).
19
  We used SSA’s Program Operations Manual System, Section SM 01005.632, AR Field Coding, to
determine the number of countries/regions in our population.
20
  When an individual becomes authorized to work, SSA does not assign a new SSN, but rather issues a
new card with the appropriate legend.
Page 6 - The Commissioner

does not always learn of such changes. DHS has also placed additional requirements
on employers to verify the work-authorization of new employees.

Reporting Work Status Changes to SSA

While SSA is required to notify DHS of potentially unauthorized employment,21 DHS
does not routinely inform SSA when it changes a person’s employment status from
unauthorized to authorized.22 In addition, noncitizens do not always report changes in
their work-authorization status to SSA. For example, SSA staff told us that prior to
2002 SSA did not explicitly request that noncitizens report their change in status so they
could be issued a work-authorized SSN.23 As a result, unless the individual informs
SSA directly of their status change, SSA’s enumeration records will continue to show
the person as “not authorized for employment” and will record his/her earnings to the
NWALIEN file. SSA does not inform the employee or the employer that a nonwork SSN
was used for the reported wages, so both parties may not become aware of the
situation unless DHS pursues the matter. Of the 5,192 DOD employees working under
nonwork SSNs, 4,366 employees (84 percent) received their nonwork SSN prior to
2002. Therefore, SSA may not have advised them to report any changes to their work-
authorization status.

Employment Eligibility Verification Forms

DOD, as with all employers, is required to have additional hiring controls in place to
ensure that new employees are authorized to work in the United States. As a result,
employees may be able to prove their legal right to work in the United States regardless
of the type of SSN issued by SSA.

The Immigration Reform and Control Act of 1986 (IRCA)24 requires employers to certify
whether their employees are authorized to work in the United States and makes it illegal

21
  Section 414 of the Illegal Immigration Reform and Immigrant Responsibility Act of 1996
(Pub. L. No. 104-208).
22
   In a 2002 OIG audit, Work Activity for Social Security Numbers Assigned for Nonwork Purposes in the
State of Utah (A-14-01-11048), March 2002, we recommended enhanced controls over nonwork SSNs as
well as greater coordination between SSA and other Federal agencies to discourage illegal employment.
In the report, we noted data compatibility problems between SSA and DHS that needed to be resolved to
improve the information in both Agencies' databases. Currently, SSA is trying to assist DHS in resolving
the data compatibility problems by sending them two file formats of the NWALIEN file, per their request.
23
  Today a noncitizen receives a statement from SSA with the issued Social Security card, which states
“You should contact us to update your Social Security number records if your name, your U.S. citizenship
status, or your status as an alien in the U.S. changes. You will need to file an application for a corrected
Social Security card and provide proof of your identity and we may request certain other evidence
supporting the change...If you are an alien without permission to work in the U.S., your Social Security
card will be marked ‘NOT VALID FOR EMPLOYMENT.’ We will notify U.S. immigration officials if you use
the number to work.”
24
     Pub. L. No. 99-603, Section 101.
Page 7 - The Commissioner

for employers to knowingly hire unauthorized noncitizens. IRCA also states that an
employee’s documents should be accepted if they are allowed by law, appear to be
genuine on their face, and relate to the person. The employer is to maintain a DHS-
issued Employment Eligibility Verification Form (Form I-9) for each employee.

Presently, up to 25 types of documents25 issued by various Federal, State, and local
awarding agencies are valid for completing the Form I-9. However, as we noted in a
2001 audit,26 the variety of acceptable identification may discourage employers from
verifying these documents. Acceptable records include but are not limited to:
(1) DHS identity and work-authorization documents; (2) U.S. passports; (3) Social
Security cards;27 (4) State and local government records; and (5) records from schools,
medical facilities, and the military services.

We reviewed the 125 DOD employees in our earlier sample to determine how many
began work at DOD prior to 1986. According to SSA’s earnings records, 41 of these
workers (33 percent) show earnings for TY 1986 and earlier. Hence, these
41 employees may not have been subject to the I-9 procedures to verify their work-
authorization status.

VERIFICATION PROGRAMS AND AGREEMENTS

DOD is party to a number of programs and agreements with SSA and DHS to confirm
the citizenship status of its employees. However, we were unable to confirm the extent
of DOD’s use of each verification program. In addition, the various agreements and
programs appeared to overlap each other and/or cover only some DOD employees.
The Basic Pilot appears to be the most complete verification program, though not all
DOD components were registered to use this program.

Memoranda

In our discussions with SSA and DOD staff, we learned DOD coordinates with DHS and
SSA to verify the citizenship status of DOD employees. A February 2003 memorandum
of understanding was signed between DOD and the then Immigration and Naturalization
Service (now a bureau of DHS) to use DHS’ Systematic Alien Verification Entitlements



25
  See Appendix F for a sample Form I-9 showing a list of acceptable documents. Although the form
shows a list of 29 acceptable documents, DHS later reduced the number of acceptable work eligibility
documents from 29 to 25.
26
  SSA OIG, Management Advisory Report: Review of Service Industry Employer with Wage Reporting
Problems (A-03-00-10022), September 2001.
27
  The SSN card is only one of many documents that can be presented, so an employee does not need to
submit a nonwork Social Security card, which would clearly show the label “NOT VALID FOR
EMPLOYMENT” prohibiting its use for work.
Page 8 - The Commissioner

(SAVE) program.28 This program provides the DHS citizenship and work-authorization
information. On June 22, 2004, a memorandum of agreement (MOA) was signed
between SSA and DOD which provides for the verification of name/SSN combinations,
date of death, and citizenship/work status of new and existing DOD employees. This
MOA appears to be limited to military employees and does not cover DOD civilian
employees.

We were unable to determine the volume of employees being verified under each
program. In addition, the MOA between DOD and SSA is silent on whether DOD is
expected to (1) request that the employee visit SSA to update his or her citizenship
status or (2) confirm noncitizen employee information with DHS. The MOA does not
share information now being provided with newly issued Social Security cards, which
states noncitizens should provide updated citizenship and/or work status information. If
DOD does encounter inconsistencies between work status and the legend on the Social
Security card, the employee should be informed that he/she needs a replacement
Social Security card with the appropriate legend. In addition, the noncitizen information
from SSA’s Numident should be confirmed with DHS since, as we noted earlier, SSA’s
records may not have the most current work-authorization status. In fact, within the
MOA SSA states “…the SSA citizenship data may be less than 50 percent current.”

The Basic Pilot Program

SSA and DHS have developed a voluntary program, the Basic Pilot, to assist employers
in verifying their employees’ authorization to work in the U.S. economy.29 However, we
found that this program was not designed to assist employers in verifying the
employment eligibility of existing employees who may not have authorization to work in
the United States. The Basic Pilot only provides verification of employment eligibility for
newly-hired employees.

Under the Basic Pilot, employers submit information on newly-hired employees to SSA
and DHS, if needed. This information is initially run against SSA’s Numident to verify
the name, SSN, and date of birth of the employees, regardless of citizenship. When the
Numident shows the newly-hired employee is a U.S. citizen or permanent resident alien,
SSA confirms that the employee is eligible to work in the United States. When SSA
cannot confirm employment eligibility, the employee information is verified against DHS’
automated systems. DHS informs the employer about the employees’ work-
authorization status. We determined that Army recruiting offices and the Coast Guard
28
  The SAVE program provides a method of document verification within an automated environment. This
automated verification process is available to SSA to verify DHS documents presented as evidence of
lawful immigration status or work-authorization in the United States. Verification is keyed to a noncitizen’s
Alien Registration Number or the number on the Arrival-Departure Record (Form I-94). See Appendix G
for more on these DHS numbers.
29
   The President signed the Basic Pilot Program Extension and Expansion Act of 2003 (Pub. L. No. 108-
156), into law on December 3, 2003. This law extended the operation of the pilot for an additional 5 years
(to a total of 11 years) and expanded the operation to all 50 States not later than December 1, 2004.
Page 9 - The Commissioner

are registered users of the Basic Pilot; however, SSA staff told us these two
components have not verified any employees through the program. Furthermore, we
did not find evidence that the remaining DOD components were registered users. We
believe the use of the Basic Pilot among all components could assist DOD in reducing
the number of new employees working under nonwork SSNs and also assist SSA in
reducing the size of the NWALIEN file. In addition, unlike the memoranda between
DOD and SSA/DHS, the Basic Pilot automatically ensures that a DOD employee is
subject to both SSA’s verification of their name/SSN combination30 and DHS’s
verification of their current citizenship/work-authorization status. See Appendix G for
more details.

CONCLUSION AND RECOMMENDATIONS
While SSA is required annually to report to DHS potential unauthorized employment by
noncitizens who were issued nonwork SSNs, DHS does not routinely inform SSA when
it changes a person’s employment status from unauthorized to authorized. Therefore, it
is possible that many of the 5,192 DOD employees were authorized to work during the
period of review, but just failed to inform SSA of their work status change. Nonetheless,
it is also possible DOD components were employing individuals who are not authorized
to work in the United States. DOD has agreements with SSA and DHS for the
verification of some DOD employees. Furthermore, SSA has a joint program with DHS
to verify for employers the identity and work-authorization status of their newly-hired
employees, but the voluntary program is not designed for verification of work-
authorization of existing employees.

To assist SSA in achieving its goal to increase the accuracy of its records, we
recommend SSA:

     1. Work with DOD and DHS, as appropriate, to share information on all existing
        employees, military and civilian, working under nonwork SSNs so SSA’s records
        can reflect changes in an employee’s work-authorization.

     2. Encourage all DOD components to participate in the expanded Basic Pilot so
        they can verify the identity and work-authorization of new employees against
        both SSA and DHS records.

AGENCY COMMENTS
The Agency agreed in part with recommendation one and in full with recommendation
two. In regards to the first recommendation, SSA noted that they do not have the legal
authority to disclose nonwork status to employers, including DOD. SSA’s comments
are included in Appendix I.


30
 We reviewed DOD employee name/SSN mismatches in our March 2005 report Department of Defense
Wage Items in the Earnings Suspense File (A-03-04-14041).
Page 10 - The Commissioner

OIG RESPONSE
We appreciate the Agency’s response to our recommendations as well as the
assistance of SSA staff throughout this review. In terms of the first recommendation,
SSA already has the ability to initiate discussions with DOD based on the June 22, 2004
MOA. The MOA between SSA and DOD provides for the verification of name/SSN
combinations, date of death, and citizenship/work status of new and existing DOD
military employees. Such discussions could also clarify DOD’s role, including
(1) requesting that the employee visit SSA to update his or her citizenship status and
(2) confirming noncitizen employee information with DHS.




                                              S
                                              Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms
APPENDIX B – Relevant Laws that Govern Citizenship for Military Personnel
APPENDIX C – Scope and Methodology
APPENDIX D – Wage Items Reported Under Nonwork Social Security Numbers
APPENDIX E – Top Ten Countries of Birth Among Department of Defense Employees
             with Nonwork Social Security Numbers
APPENDIX F – Form I-9 Required Documentation
APPENDIX G – The Basic Pilot Program
APPENDIX H – Prior Audit Reports
APPENDIX I – Agency Comments
APPENDIX J – OIG Contacts and Staff Acknowledgments
                                                                           Appendix A
Acronyms
DFAS                      Defense Finance and Accounting Service
DHS                       Department of Homeland Security
DOB                       Date of Birth
DOD                       Department of Defense
EIN                       Employer Identification Number
EVS                       Employee Verification Service
INA                       Immigration and Nationality Act
IRCA                      Immigration Reform and Control Act
MEF                       Master Earnings File
MOA                       Memorandum of Agreement
NWALIEN                   Nonwork Alien
OIG                       Office of the Inspector General
Pub. L. No.               Public Law Number
SAVE                      Systematic Alien Verification for Entitlements
SSA                       Social Security Administration
SSN                       Social Security Number
TY                        Tax Year
USCIS                     U.S. Citizenship and Immigration Services
Forms
“A” Number                Alien Registration number
Form DS-1350 or FS-545    Certificate of Birth
Form I-197                United States Citizen Identification Card
Form I-327                Re-entry Permit
Form I-551                Alien Registration Receipt Card
Form I-571                Refugee Travel Document
Form I-688                Temporary Resident Card
Form I-688 A or I-688 B   Employment Authorization Document
Form I-9                  Employment Eligibility Verification Form
Form I-94                 Arrival/Departure Record
Form N-560 or N-561       Certificate of United States Citizenship
Form N-550 or N-570       Certificate of Naturalization
Form SS-5                 Application for a Social Security Card
Form W-2                  Wage and Tax Statement
                                                                                   Appendix B

Relevant Laws that Govern Citizenship for
Military Personnel
Recent changes in relevant sections of the Immigration and Nationality Act (INA)
(Sections 328 and 329) 1 make it easier for qualified military personnel2 to become U.S.
citizens if they choose to file a naturalization application. In addition, U.S. Citizenship
and Immigration Services (USCIS) has created a streamlined process specifically for
military personnel serving in active-duty status or recently discharged. Below is some
basic information about the laws that govern citizenship for military personnel.

SECTION 328, INA

This section applies to all members currently serving in the U.S. Armed Forces or those
who have already been discharged from service. Individuals may qualify if:

9 They have served honorably for a total of 1 or more years.
9 They are a lawful permanent resident.
9 They filed their application for naturalization while still in service or within 6 months
  of being discharged.

SECTION 329, INA

This section applies to members of the U.S. Armed Forces who served in active-duty
status during authorized periods of conflict as outlined in the INA or any additional
period designated by the President in an Executive Order. 3 Individuals may qualify if:

9 They served honorably in the U.S. Armed Forces during an authorized period of
  conflict.
9 After enlistment, they were lawfully admitted as a permanent resident of the United
  States, or at the time or enlistment, reenlistment, or induction they were physically
  present in the United States or qualifying territory.


1
 Naturalization Information for Military Personnel, USCIS, Department of Homeland Security (see
http://uscis.gov/graphics/services/natz/MilitaryBrochurev7.htm).
2
  There are general requirements and qualifications that must be met to become a U.S. citizen. These
include demonstrating (1) good moral character, (2) knowledge of the English language, (3) knowledge of
U.S. government and history (“civics”) and (4) attachment to the U.S. by taking an oath of allegiance to
the U.S. Constitution.
3
 The President signed Executive Order #13269, Expedited Naturalization of Aliens and Noncitizen
Nationals Serving in An Active-Duty Status During the War on Terrorism, allowing noncitizens who were
serving honorably in the U.S. military beginning on September 11, 2001 to apply for expedited citizenship.



                                                    B-1
POSTHUMOUS BENEFITS

The INA allows for the awarding of posthumous citizenship to active-duty military
personnel who die while serving in the armed forces. In addition, surviving family
members seeking immigration benefits are given special consideration.




                                           B-2
                                                                                  Appendix C

Scope and Methodology
To accomplish our objective, we:

•     Reviewed pertinent sections of the Social Security Administration’s (SSA) policies
      and procedures as well as other relevant Federal laws and regulations.

•     Reviewed Office of the Inspector General (OIG) and Government Accountability
      Office reports and other relevant documents.

•     Obtained a data extract from SSA’s Nonwork Alien (NWALIEN) file for the
      36 Employer Identification Numbers (EIN)1 used by the Department of Defense
      (DOD) during Tax Years 1999 through 2003.2

•     Summarized the NWALIEN file data containing the wage items reported by DOD
      employees using a nonwork Social Security number (SSN). We determined how
      many employees were related to the wage items. We also determined their current
      work-authorization status within SSA’s systems.

•     Randomly selected 125 employees with earnings under a nonwork SSN and
      reviewed SSA’s records—the Numident and Master Earnings File—to determine
      (1) when the individuals were enumerated, (2) their work history, and (3) their
      current work status at DOD.

•     Summarized the employees in the NWALIEN file by country of birth.

•     Reviewed documentation related to existing SSA employee verification programs.
      We also were provided with employee verification agreements between DOD and
      SSA as well as DOD and the Department of Homeland Security (DHS).

•     Discussed the following with SSA staff: (1) Social Security card features,
      (2) employer verification programs, and (3) other payroll issues.

•     Discussed DOD’s new hire programs and policies with staff from the DOD’s OIG.




1
 The EIN is a 9-digit number assigned by the Internal Revenue Service to sole proprietors, corporations,
partnerships, estates, trusts, and other entities for tax filing and reporting purposes.
2
    We did not include DOD contractor employees in our review.




                                                    C-1
In our review, we compared the NWALIEN file data to SSA’s records and determined
that the NWALIEN file data was sufficiently reliable to accomplish our objectives.
However, we did not verify each employees’ work-authorization status with DHS. The
entity audited was SSA’s Office of Earnings Operations and Administrative Systems
under the Office of the Deputy Commissioner for Systems. We conducted our audit
between January 2004 and June 2005 in Philadelphia, Pennsylvania. We conducted
our audit in accordance with generally accepted government auditing standards.




                                         C-2
                                                                     Appendix D

Wage Items Reported Under Nonwork Social
Security Numbers
Our review found that 5,192 Department of Defense (DOD) employees were working
under nonwork Social Security numbers (SSN) during Tax Years (TY) 1999 to 2003.
For these employees, DOD components submitted 19,777 wage items totaling
approximately $573 million in wages that were recorded to the Social Security
Administration’s (SSA) Nonwork Alien (NWALIEN) file. See Table below for a breakout
of these wages.

       Table – Breakout of DOD Employee Earnings Under Nonwork SSNs
   Greater than                                                             Percent
   or Equal to       Less than       Wage      Percent        Total           of
   Lower Limit      Upper Limit      Items     of Items       Wages         Wages
              $0        $25,000      9,351     47.28%     $116,880,375      20.40%
         $25,000        $50,000      7,351     37.17%     $241,752,492      42.19%
         $50,000        $75,000      2,259     11.42%     $138,293,708      24.13%
         $75,000       $100,000        658      3.33%      $55,004,266       9.60%
        $100,000       $125,000        128      0.65%      $13,898,435       2.43%
        $125,000       $150,000         24      0.12%       $3,220,340       0.56%
        $150,000       $225,000          5      0.03%         $896,583       0.16%
        $225,000    $3,200,0000          1      0.01%       $3,101,700       0.54%
              Totals:              19,777        100%     $573,047,899        100%
  Source: SSA’s NWALIEN file

We found that the Navy reported one wage item in TY 2000 of $3.1 million. We
reviewed the Wage and Tax Statements for this wage item and believe there was a
formatting error (i.e. improper use of decimal points). Furthermore, the individual’s
Master Earnings File revealed that the wage earner had never received a wage item
from the same employer before totaling more than $31,000. We referred this case to
SSA for resolution.
                                                                                                                                         Appendix E
Top Ten Countries of Birth Among Department of Defense Employees
with Nonwork Social Security Numbers
Our review found that 5,192 Department of Defense (DOD) employees were working under nonwork Social Security numbers during
Tax Years (TY) 1999 to 2003. For these employees, DOD components submitted 19,777 wage items totaling approximately
$573 million in wages that were recorded to the Social Security Administration’s (SSA) Nonwork Alien (NWALIEN) file. We found that
of 3,598 (69 percent) of the 5,192 DOD employees were born in 10 different foreign countries—the Philippines, Taiwan, China, India,
Iran, South Korea, Mexico, Nigeria, Canada, and the United Kingdom.1

        Table – Summary of Department of Defense Employees with Earnings under a Nonwork SSN (Tax Years 1999 - 2003)1
                                                                                                                                 Coast
                                                                   1
    Countries           DOD               Navy            DFAS              Army           Air Force          Marines            Guard             Totals
                    Wage Earners          1,838             416               93                66                18                2               2,433
    Philippines
                     Wage Items           7,871            1,386              383              234                59                3               9,936
                    Wage Earners           11               170               11                 8                2                 1                203
      Taiwan
                     Wage Items            26               529               34                26                6                 5                626
                    Wage Earners           10               136               23                 7                5                  -               181
      China
                     Wage Items            29               384               84                13                15                 -               525
                    Wage Earners            8               119               10                 6                4                  -               147
       India
                     Wage Items            24               415               31                18                12                 -               500
                    Wage Earners            5               109               15                 9                3                  -               141
        Iran
                     Wage Items            44               382               69                42                8                  -               545
Note 1: In this chart, Defense Finance and Accounting Service (DFAS) includes civilian employees who worked for the military departments as well as DOD
agencies.

1
    The United Kingdom includes England, Scotland, Wales, and Northern Ireland.


                                                                              E-1
                                                                                                                              Coast
  Countries            DOD              Navy             DFAS             Army            Air Force         Marines           Guard         Totals
                   Wage Earners           4                67                49               11                7                 -          138
 South Korea
                    Wage Items            17               219              146               40               25                 -          447
                   Wage Earners           29               12                53               11               25                 -          130
    Mexico
                    Wage Items            78               38               160               33               67                 -          376
                   Wage Earners           14               39                38                5                3                 -           99
    Nigeria
                    Wage Items            63               128              174               17               11                 -          393
                   Wage Earners           18               20                41                9                8                 1           97
    Canada
                    Wage Items            64               49               150               33               28                 2          326

    United         Wage Earners           16               25                28               10               11                 2           92
   Kingdom          Wage Items            45               72               117               37               37                 6          314
Source: SSA’s NWALIEN file


  Total Wage Earners                3,6612
    Total Wage Items                13,988
Note 2: The 3,661 figure represents 3,598 distinct employees as some individuals worked for multiple DOD components during TYs 1999–2003.




                                                                            E-2
                                                                                                      Appendix F

Form I-9 Required Documentation
When completing the Employment Eligibility Verification document (Form I-9), an
employer is required to examine one document from List A or examine one document
from List B and one from List C.1

             List A                                           List B                                          List C
    Documents that Establish
       Both Identity and                       Documents that Establish                        Documents that Establish
     Employment Eligibility                           Identity                                  Employment Eligibility
    1. U.S. Passport (unexpired or        1. State driver’s license or identification card   1. Social Security card issued by the
    expired)                              with photo and personal information                Social Security Administration (other
                                                                                             than a card stating it is not valid for
                                                                                             employment)
    2. Certificate of U.S. Citizenship    2. Federal, State, local Government                2. Certificate of Birth Abroad issued by
    (USCIS Form N-560 or N-561)           agencies identification card with photo and        State Department (Form FS-545 or
                                          personal information                               Form DS-1350)
    3. Certificate of Naturalization      3. School identification card with photo           3. Birth Certificate issued by State,
    (USCIS Form N-550 or N-570)                                                              county, municipal authority or U.S.
                                                                                             possession
    4. Unexpired foreign passport, with   4. Voter’s registration card                       4. Native American tribal document
    I-551 stamp or attached Form I-94
    indicating unexpired employment
    authorization
    5. Permanent Resident Card or         5. U.S. military card or draft record              5. U.S. Citizen Identification Card
    Alien Registration Receipt Card                                                          (USCIS Form I-197)
    with photograph (USCIS Form
    I-151 or I-551)
    6. Unexpired Temporary Resident       6. Military dependent’s ID card                    6. ID Card for use of Resident Citizen in
    Card (USCIS Form I-688)                                                                  the United States (USCIS Form I-179)
    7. Unexpired Employment               7. U.S. Coast Guard Merchant Mariner Card          7. USCIS Employment Authorization
    Authorization Card (USCIS Form                                                           document (unexpired) (other than those
    I-688A)                                                                                  listed under List A)
    8. Unexpired Reentry Permit           8. Native American tribal document
    (USCIS Form 1-327)
    9. Unexpired Refugee Travel           9. Canadian driver’s license
    Document (USCIS Form 1-571)
    10. Unexpired Employment              10. School record or report card (persons
    Authorization Document issued by      under age 18)
    USCIS that contains photograph
    (USCIS Form I-688B)
                                          11. Medical record: clinic, doctor, or hospital
                                          (persons under age 18)
                                          12. Day-care or nursery school record
                                          (persons under age 18)




1
  On March 1, 2003, services formerly provided by the Immigration and Naturalization Service
transitioned into the Department of Homeland Security under U.S. Citizenship & Immigration Services
(USCIS).


                                                              F-1
Special Instructions:

Please note the following changes to the Form I-9 process:

   Form I-766 (Employment Authorization Document), although not listed on the
    May 31, 2005 version of the Form I-9, is an acceptable List A document #10.

   Form I-151 is no longer an acceptable List A document #5. However, Form I-551
    remains an acceptable List A document #5.

   The following documents have been removed from the list of acceptable identity and
    work-authorization documents: Certificate of U.S. Citizenship (List A #2), Certificate
    of Naturalization (List A #3), Unexpired Reentry Permit (List A #8) and Unexpired
    Refugee Travel Document (List A #9).




                                          F-2
                                                                                Appendix G

The Basic Pilot Program
The Basic Pilot is a Social Security Administration (SSA) and Department of Homeland
Security (DHS) joint program whereby employers verify the employment eligibility of
newly-hired employees. This voluntary program helps employers determine whether an
individual is eligible to work in the United States, which could help SSA avoid reporting
these earnings to the Nonwork Alien and Earnings Suspense File items. The President
signed the Basic Pilot Program Extension and Expansion Act of 2003 (Pub. L. No.
108-156) into law on December 3, 2003. This law extended the operation of the pilot for
an additional 5 years (to a total of 11 years) and expanded the operation to all 50 States
not later than December 1, 2004.

As discussed with SSA staff, the Basic Pilot involves using the information in
Government databases (SSA databases and, if needed, DHS databases) to determine
the employment eligibility of new hires. The Social Security number (SSN) and Alien
Registration Number (“A” Number)1 or I-94 Arrival/Departure Number (I-94 Number)2 are
used for these checks. The employer must complete the DHS-issued Employment
Eligibility Verification Form (Form I-9) for each employee and then enter elements of this
data into the Basic Pilot within 3 days of hiring, including the employee’s SSN, name,
date of birth (DOB), and whether the new-hire indicated he/she was a U.S. citizen and,
if not the “A” Number or I-94 Number.

The system first checks the information entered against SSA’s database to verify the
name, SSN, and DOB of all newly-hired employees, regardless of citizenship. When
the Numident shows the U.S. as the place of birth for the newly-hired employee or a
code indicating the number holder is a U.S. citizen or permanent resident alien, the
Basic Pilot automated system confirms employment eligibility. If the Basic Pilot system
cannot confirm employment eligibility based on the information in SSA’s database and
either an “A” Number or I-94 Number was entered, the Basic Pilot system automatically
checks the data against DHS’ database.

In some cases, the employer will receive notification of "SSA tentative non-confirmation"
of employment eligibility when the SSN, name, or DOB does not match the information
in SSA’s database. The message of "SSA tentative non-confirmation" of employment
eligibility will be received when the new-hire indicated he/she was a U.S. citizen and
1
  The “A” number is the 8 or 9-digit number following “A” which is shown on the “green card” or
Permanent Resident Card (formerly the I-551 Alien Registration Receipt Card), the Employment
Authorization Document (I-766 and I-688B), and on certain other immigration documents and notices.
For newly admitted immigrants, the A number is shown on the machine readable immigrant visa affixed to
the foreign passport.
2
 The I-94 Number is the 11-digit number located on the Arrival-Departure Record (Form I-94). The I-94
Form shows the date one arrived in the United States, the “Admitted Until” date, and the date when
his/her authorized period of stay expires.


                                                 G-1
SSA’s records did not show that the individual was a U.S. citizen. In some cases, the
employer will receive notification of "DHS tentative non-confirmation" of employment
eligibility when DHS’ database does not show the new-hire as authorized for
employment. In these cases, the employer asks the employee whether he/she wishes
to contest the tentative non-confirmation. If contested, the employee must contact SSA
or DHS within 8 Government working days of the notification. After the employee
contacts SSA or DHS to correct the record, the employer resubmits the query through
the Basic Pilot system. If SSA and DHS have not changed their records within
10 Government working days and the system does not confirm employment eligibility,
the employer may terminate the new-hire.




                                         G-2
                                                                   Appendix H

Prior Audit Reports
Security r Related to the Earnings Suspense File
             Social Security Administration, Office of the Inspector General
                 Reports Related to Nonwork Social Security Numbers
   Common
 Identification                                                                 Date
    Number                            Report Title                             Issued
                  Work Activity for Social Security Numbers Assigned for
A-14-01-11048                                                               March 2002
                  Nonwork Purposes in the State of Utah
                  The Social Security Administration’s Employee
A-03-02-22008                                                              September 2002
                  Verification Service for Registered Employers
                  Congressional Response Report: Social Security
A-03-03-23053                                                               March 2003
                  Administration Benefits Related to Unauthorized Work
                  Profile of the Social Security Administration’s
A-14-03-23071                                                              September 2003
                  Non-Work Alien File
                  Department of Defense Wage Items in the Earnings
A-03-04-14041                                                               March 2005
                  Suspense File
                  Appendix I

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM                                                                             0905-0001865


Date:      September 08, 2005                                                   Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye        /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Unauthorized Work Social Security
           Numbers at the Department of Defense" (A-03-05-25127)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
           recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         I-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “UNAUTHORIZED WORK SOCIAL SECURITY NUMBERS AT THE
DEPARTMENT OF DEFENSE” (A-03-05-25127)

Thank you for the opportunity to review and provide comments on this draft report. We
appreciate your acknowledgement of the steps the Social Security Administration (SSA) has
taken to share information with the Department of Homeland Security (DHS) and the
Department of Defense (DoD) on employees not authorized to work through the Non-Work
Alien File and the Basic Pilot program. As SSA continues to look for ways to strengthen our
policies, we understand that a cooperative partnership with other agencies will assist in
improving the enumeration process.

Recommendation 1

Work with DoD and DHS, as appropriate, to share information on all existing employees,
military and civilian, working under nonwork Social Security numbers (SSN) so SSA’s records
can reflect changes in an employee’s work-authorization.

Comment

We agree in part. The Agency has the legal authority to disclose information related to alien
non-work status with DHS under the Privacy Act to assist DHS in the location and identification
of aliens in the United States (U.S.) based on the Immigration Naturalization Service (INS)
statute 8 U.S.C. 13060(c)(2). We will continue to provide the name and SSN of individuals who
have earnings on non-work SSNs electronically to DHS. However, SSA does not have the legal
authority to disclose non-work status to employers, including DoD.

Additionally, our current policy requires any changes of information on a number holder’s
Numident, including changes to work authorization immigration status, be reported to SSA by
the number holder, and verified with DHS, before the Numident can be updated. We cannot
update the Numident record based on information obtained from the employer. Even if DHS
reports the work status changed, in order to correct the Numident record, the number holder is
still required to file for a corrected Social Security card. This enables SSA to obtain a Social
Security card application and required evidence, including evidence of identity and immigration
status. This procedure adds to the integrity of the enumeration process.

Recommendation 2

Encourage all DoD components to participate in the expanded Basic Pilot so they can verify the
identity and work-authorization of new employees against both SSA and DHS records.




                                               I-2
Comment

We agree. Even though the Basic Pilot is managed by DHS, not SSA, we will work with DHS to
encourage DoD to expand their participation in the Basic Pilot Program.


[SSA also provided technical comments which have been addressed, where appropriate
in this report.]




                                           I-3
                                                                      Appendix J

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Walter Bayer, Director, Philadelphia Audit Division, (215) 597-4080

   Cylinda McCloud-Keal, Audit Manager, (215) 597-0572

Acknowledgments

In addition to those named above:

   Virginia Montelpare, Auditor-in-Charge

   Rich Devers, Information Technology Specialist

   Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-03-05-25127.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General

The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.

                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.

                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
